        U.S. Department of Energy
        Office of Inspector General
        Office of Audits and Inspections




Audit Report
Management of Tritium within the
National Nuclear Security
Administration




OAS-L-14-01                     November 2013
                                 Department of Energy
                                    Washington, DC 20585
                                       November 18, 2013



MEMORANDUM FOR THE DIRECTOR, NUCLEAR MATERIALS DIVISION, OFFICE
               OF STOCKPILE MATERIALS


FROM:                    Daniel M. Weeber
                         Assistant Inspector General
                            for Audits and Administration
                         Office of Inspector General

SUBJECT:                 INFORMATION: Audit Report on "Management of Tritium within the
                         National Nuclear Security Administration"

BACKGROUND

The National Nuclear Security Administration (NNSA) is responsible for producing tritium, a
key component necessary for maintaining the Nation's nuclear weapons stockpile. NNSA's
nuclear weapons Readiness Campaign coordinates with the Department of Defense to determine
stockpile requirements and provide annual updates on tritium production and inventory status.
The Tritium Readiness subprogram provides the capability for producing tritium needed for the
Nation's nuclear weapons mission.

Currently, the only new source for tritium is to irradiate tritium-producing burnable absorber
rods (TPBARs) in one or more nuclear power reactors operated by the Tennessee Valley
Authority (TVA). After completion of the 18-month reactor cycle, the TPBARs are removed
from the reactor and cooled for approximately 6 months prior to shipment to the Savannah River
Site where the tritium is extracted at the Tritium Extraction Facility and added to inventory.

Considering the importance of tritium for the nuclear weapons mission, we initiated this audit to
determine whether NNSA was effectively managing tritium supplies to meet nuclear weapons
needs.

RESULTS OF AUDIT

Based on our review, we determined that NNSA is effectively managing tritium supplies to meet
nuclear weapons needs. NNSA currently maintains tritium supply levels slightly above demand
levels and projects that future supplies will be maintained at similar levels. At the time of our
review, NNSA had developed plans to increase the number of TPBARs irradiated per reactor
cycle as the demand for tritium increases. NNSA plans called for a steady increase in the
number of TPBARs irradiated per reactor cycle to a maximum of 2,000 TPBARs in 1 reactor.
Should future demands require more than 2,500 TPBARs per reactor cycle, TVA will have to
use more than 1 reactor to irradiate the TPBARs.
NNSA tracks and assesses future tritium supply and demand levels through the use of a Master
Nuclear Schedule database application, which includes a tritium simulation module that models
the demand for and supply of tritium. NNSA also holds Tritium Readiness Quarterly
Management meetings to discuss emerging and ongoing issues concerning design, fabrication,
irradiation, transportation and extraction of TPBARs. These meetings generally include
representatives from NNSA and various contractors responsible for each area of tritium
production.

While NNSA is effectively managing tritium supplies to meet nuclear weapons needs in the near
term, we found that several key actions should be completed to ensure that future tritium supplies
are not disrupted.

                         Supplemental Environmental Impact Statement

NNSA experienced delays in completing a Supplemental Environmental Impact Statement which
TVA plans to use in pursuing its upcoming license amendment request to the Nuclear Regulatory
Commission. The amendment is necessary to permit TVA to increase the quantity of tritium
generated or the number of TPBARs irradiated per reactor cycle in one reactor. The
Supplemental Environmental Impact Statement would analyze the increased levels of tritium that
are expected to permeate into the reactor coolant water as a result of the increase in the number
of TPBARs irradiated. NNSA published a Notice of Intent in September 2011, to prepare a
Supplemental Environmental Impact Statement that was to be completed and approved by the
summer of 2013. NNSA currently anticipates that the Supplemental Environmental Impact
Statement will be completed and approved no sooner than March 2014. Additionally, TVA's
work on the license amendment request was halted due to NNSA's inability to provide TVA with
the $800,000 in funding necessary to complete an analysis on a new reactor core design to
support the increase in the number of TPBARs per reactor cycle.

The Supplemental Environmental Impact Statement and the license amendment request it
supports are critical to meet future tritium demands, which are expected to exceed Nuclear
Regulatory Commission permitted amounts by October 2015. To increase the current reactor
safety limits by January 2015, NNSA had established a management challenge to complete the
Supplemental Environmental Impact Statement. If the license amendment is not approved by
October 2015, TVA will be forced to produce less tritium than required by current NNSA plans.
If the resulting shortfall cannot be recovered in future reactor cycles it may become necessary for
TVA to use an additional reactor, which would be very costly to NNSA. NNSA estimated that it
would take 4 years and a minimum of $20 million dollars to prepare an additional reactor to meet
its tritium production requirements. All associated costs would be borne by NNSA.

The Supplemental Environmental Impact Statement is also needed to address changes observed
at the TVA reactor. NNSA and TVA noted increases in tritium permeation levels when TVA
increased the number of TPBARs from 240 to 368 per reactor cycle in September 2009. The
Council on Environmental Quality's implementing regulations for the National Environmental
Policy Act and the Department of Energy's implementing regulations require the preparation of a
supplement to an environmental impact statement when there are substantial changes to a
proposal or when there are significant new circumstances or information relevant to
environmental concerns. Pursuant to this requirement, the Supplemental Environmental Impact

                                                2
Statement is needed to update tritium permeation assumptions made in the Final Environmental
Impact Statement for the Production of Tritium in a Commercial Light Water Reactor
(DOE/EIS-0288, March 1999).

                                          TPBAR Parts

We also noted that parts used to assemble new TPBARs are nearly exhausted and procurement
actions for several key parts should be started without further delay to ensure that parts are
available to support the future needs for tritium production. NNSA contracted with WesDyne
International, LLC (WesDyne) to assemble TPBARs to support each reactor cycle. In the past,
NNSA procured TPBAR parts and provided them to WesDyne for assembly. WesDyne then
provided the assembled TPBARs to TVA for irradiation. NNSA is currently considering
modifying WesDyne's contract to include procurement responsibilities. However, at the time of
our review, NNSA was undecided as to whether to continue to provide the parts to WesDyne.

In September 2012, WesDyne reported to NNSA that some parts used to assemble TPBARs
would be exhausted as early as Fiscal Year (FY) 2016. WesDyne requested that NNSA provide
direction concerning the quantity of TPBARs that are anticipated for future reactor cycles and
make a determination regarding the level of enrichment that will be necessary. WesDyne also
suggested that NNSA maintain the same TPBAR design until 2020, to facilitate timely
replenishment of TPBAR parts with minimal changes. NNSA provided the direction that
WesDyne requested regarding quantity of TPBARs and enrichment levels. However, NNSA
decided not to freeze the TPBAR design at this time. Management indicated that freezing the
design might foster resistance to potential design changes in the future because parts had already
been purchased.

Furthermore, NNSA has not initiated the procurement process for the two key TPBAR parts
expected to be exhausted in FY 2016. To avoid a disruption to assembly, WesDyne estimated
that the procurement process for these parts should begin during FY 2013. However, due to
budget constraints, as of October 2013, the implementation of this procurement process had not
occurred. Additionally, the current supply of another key TPBAR part is expected to be
exhausted in FY 2017, and WesDyne estimated that the procurement process for this part will
need to begin during FY 2014. NNSA also has not initiated the procurement process for this
additional part. Should NNSA decide to have WesDyne procure the necessary TPBAR parts
directly, this action must occur in time for WesDyne to identify potential vendors to fabricate the
parts. Timely NNSA action is critical to enable WesDyne to provide the potential vendors with
quantities and specifications for the preparation of their bids.

SUGGESTED ACTIONS

NNSA officials have initiated actions to complete the Supplemental Environmental Impact
Statement and ensure the assembly of an adequate number of TPBARs needed to meet tritium
production requirements. NNSA should complete the actions necessary to ensure the long-term
supply of tritium for the Nation's nuclear weapons mission. Accordingly, we suggest that the
Director, Nuclear Materials Division, Office of Stockpile Materials:

   1. Work with TVA to ensure that necessary license amendment requests are made to the
      Nuclear Regulatory Commission;
                                            3
      2. Complete the Supplemental Environmental Impact Statement as soon as practicable; and

      3. Make a timely decision regarding the responsibility for procuring TPBAR parts to ensure
         that TPBARs are available to meet future tritium production requirements.

Attachment

cc:    Deputy Secretary
       Acting Administrator, National Nuclear Security Administration
       Chief of Staff




                                                4
                                                                                     Attachment


                       OBJECTIVE, SCOPE AND METHODOLOGY

OBJECTIVE

The objective of the audit was to determine whether the National Nuclear Security
Administration (NNSA) was effectively managing tritium supplies to meet nuclear weapons
needs.

SCOPE

We performed the audit between May 2012 and November 2013. Work was conducted
primarily at the Savannah River Site in Aiken, South Carolina, with additional information
coming from the NNSA offices in Washington, DC and Albuquerque, New Mexico. The audit
included a review of current and future tritium supply and demand forecasts.

METHODOLOGY

To accomplish the objective of this audit, we:

       Reviewed applicable Federal and Department of Energy regulations and guidance;

       Reviewed prior Office of Inspector General and U.S. Government Accountability Office
       reports related to the audit objective;

       Reviewed current and future NNSA forecasts related to tritium supply and demand; and

       Interviewed NNSA and contractor personnel with responsibility over tritium production.

We conducted this performance audit in accordance with generally accepted Government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our conclusions based on our audit objective. The audit included test of controls and
compliance with laws and regulations to the extent necessary to satisfy the audit objective. In
particular, we assessed the implementation of the GPRA Modernization Act of 2010 and found
that the Department had established performance measures related to the management of the
tritium program. Because our review was limited, it would not necessarily have disclosed all
internal control deficiencies that may have existed at the time of our audit. Finally, we relied
upon computer-processed data to a limited extent to accomplish our audit objective and
performed appropriate tests to validate the results.

An exit conference was waived by NNSA management on November 7, 2013.




                                                 5
                                                                    IG Report No. OAS-L-14-01


                             CUSTOMER RESPONSE FORM
The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if applicable to you:

     1. What additional background information about the selection, scheduling, scope, or
        procedures of the audit or inspection would have been helpful to the reader in
        understanding this report?

     2.   What additional information related to findings and recommendations could have been
          included in the report to assist management in implementing corrective actions?

     3.   What format, stylistic, or organizational changes might have made this report's overall
          message more clear to the reader?

     4.   What additional actions could the Office of Inspector General have taken on the issues
          discussed in this report that would have been helpful?

     5.   Please include your name and telephone number so that we may contact you should
          we have any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

   If you wish to discuss this report or your comments with a staff member of the Office of
   Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                  U.S. Department of Energy Office of Inspector General Home Page
                                         http://energy.gov/ig

      Your comments would be appreciated and can be provided on the Customer Response Form.
